i
IN THE
SUPREME COURT OF THE UNITED STATES

ANTONIO BENSON,
Petitioner,

v.

supre

filed

s-

JUL^m
STATE OF TENNESSEE,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE TENNESSEE SUPREME COURT

PETITION FOR A WRIT OF CERTIORARI

Antonio Benson
Petitioner Pro Se
Morgan County Corr’l Complex
P.O. Box 2000
Wartburg, TN 37887-2000

2FFICEQ

QUESTIONS PRESENTED

I.
Whether the ruling of the Tennessee Supreme Court, which reversed the opinion of the
Tennessee intermediate appellate court, that the Petitioner was not entitled to a jury instruction of
self-defense violated Petitioner’s due process protections.

II.
Whether the ruling of the Tennessee Supreme Court, which reversed the opinion of the
Tennessee intermediate appellate court, that the trial court properly failed to instruct the jury on the
issue of self-defense violated Petitioner’s Constitutional rights that every issue of fact raised by the
evidence and material to the defense of self-defense be submitted to the jury upon proper
instructions

2

PARTIES TO THE PROCEEDING
The petitioner in this case is Antonio Benson. The respondent is the State of Tennessee.

3

TABLE OF CONTENTS

Questions Presented

2

Parties to the Proceeding.

3

Table of Contents

,4

Table of Authorities

5

Petition for a Writ of Certiorari

,7

Opinions Below,

7

Statement of Jurisdiction

,7

Constitutional and Statutory Provisions Involved

.7

I. Statement of the Case

8

II. Reasons for Granting the Writ

10

A. Tennessee self-defense framework.
B. United Stated Supreme Court comments on self defense — Due process
considerations.
C. Ambiguity regarding the minimum threshold of proof that satisfies due process
that merits a self-defense jury instruction.
D. Guidance is needed in order to clarify the level of proof needed to warrant a jury
instruction on the defense of self-defense in order to satisfy due process
III. Conclusion

13

APPENDIX:
State v. Antonio Benson
Opinion of the Tennessee Supreme Court, 600 S.W. 3d 896 (Tenn. 2020)
Reported..........................................................................................................

Exhibit A

State v. Antonio Benson
Opinion of Tennessee Court of Criminal Appeals, W2017-01119-CCA-R3-CD, 2018 WL 5810004
Not reported
Exhibit B

4

TABLE OF AUTHORITIES
U. S. CONSTITUTION AND AMENDMENTS
Fourteenth Amendment

7

28 U.S.C. § 1257 (a)

6

TENNESSEE STATUTES
Tenn. Code Ann. § 39-11-203

6

Tenn. Code Ann. § 39-11-611

6

UNITED SUPREME COURT CASES
Engle v. Isacc, 456 U.S. 107,102 S. Ct. 1558, 71 L.Ed.2d 783 (1982)

10

Jackson v. City and County of San Francisco. 135 S. Ct 2799

10

Martin v. Ohio. 480 U.S. 228,107 S. Ct. 1098, 71 L.Ed.2d 783 (1987)...........

10

Middleson v. McNeil. 542 U.S. 946,124 S. Ct. 2930,158 L.Ed.2d 701 (2004)

10

TENNESSEE STATE CASES
State v. Perry. 536 S.W.3d 388 (Tenn. 2017)

10

CASES FROM VARIOUS STATES
Commonwealth v. Iacoviello. 90 Mass.App.Ct 231, 58 N.E.3d 1032 (Mass.App.Ct.2016)

11

Smith v. State. 76 So.3d 170 (Miss.2009) ...............................................................................

11

State v. Broussard. 239 N.C.App. 382, 768 S.E.2d 367 (2015)

11

State v. Head. 255 Wis.2d 194, 648 N.W.2d 413 (Wis. 2002)

11

State v. Landrus. 930 N.W.2d 176 (N.D. 2019)

12

State v. Studd. 137 Wash.2d 533, 973 P.2d 1049 (Wash. 1999)

11

5

Vila v. State. 74 So.3d 1110 (FlaA* DCA 2011)

..11
\

6

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Antonio Benson, respectfully petitions the Court for a writ of certiorari in State
of Tennessee v. Antonio Benson. W2017-01119-SC-R11-CD, 2020 WL 2079055 (Tenn. April 30,
2020).
OPINIONS BELOW
The opinion of the Tennessee Supreme Court W2017-01119-SC-R11-CD, 2020 WL
2079055 (Tenn. April 30, 2020) is unreported and is included in App. 1.
Tennessee

Court

of Criminal Appeals,

W2017-01119-CCA-R3-CD,

The opinion of the
2018

WL

5810004

(Tenn.Crim.App. 2018) is unreported and is included in App. 2.

STATEMENT OF JURISDICTION
The Tennessee Supreme Court issued its opinion reversing the Tennessee Court of Criminal
Appeals on April 30, 2020, upholding the trial court’s denial to instruct the jury regarding the
defense of self-defense. This Court has jurisdiction pursuant to 28 U.S.C. § 1257 (a).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Tennessee Code Annotated (hereinafter referred to as “T.C.A.”) § 39-11-203, Defenses,
provides the basis for the defense of self-defense in Tennessee. In Tennessee, T.C.A. § 39-11-611,
Self defense, is to be considered in conjunction with T.C.A. § 39-11-203, together these statutes
provide the framework of the burden that a defendant must satisfy in order for a court to instruct a
jury on the defense of self-defense.
The Fourteenth Amendment to the United States Constitution provides in relevant part:
“[N] or shall any state deprive any person of life, liberty, or property, without due process of law.”

7

I. STATEMENT OF THE CASE
On August 22, 2013, the Shelby County, Tennessee Grand Jury returned an indictment
against the Petitioner, Antonio Benson, charging him with one count of First-Degree Murder.
On January 13, 2017, a jury convicted the Petitioner of First-Degree Murder.

The

Defendant was sentenced to life in prison.
However, during the trial, testimony by state investigators highlighted that the victim was the
first aggressor during the unfortunate events that occurred. Based upon the testimony that was
developed that the victim was the first aggressor and the victim’s previous violent temperament,
Petitioner filed a written request with the trial court for a jury instruction on the issue of selfdefense. The trial court refused to give a jury instruction on the issue of self-defense.
The Petitioner appealed his conviction to the Tennessee Court of Criminal Appeals.
Petitioner raised four issues with the Tennessee Court of Criminal Appeals; however, as pertinent to
this matter, the Petitioner raised the issue of whether the trial court erred in not giving a self-defense
instruction to the jury.

One important aspect that the Tennessee Court of Criminal Appeals

referenced was that the jury, during deliberations, sent a written note to the court asking, “Is it okay
to shoot someone in the back in any situation? Rather it’s self-defense, someone breaking in your
house, etc.” The Tennessee Court of Criminal Appeals noted this “perplexing” situation in its
opinion. Based upon the testimony developed at trial, the jury’s question, and the totality of the
Petitioner’s matter, the Tennessee Court of Criminal Appeals reversed Petitioner’s conviction based
upon the trial court’s failure to instruct the jury on the issue of self-defense.
The State filed an application to appeal to the Tennessee Supreme Court that was granted by
the Tennessee Supreme Court. The Tennessee Supreme Court reversed the Tennessee Court of
Criminal Appeals and reinstated the trial court verdict. The Tennessee Supreme Court opined the
trial court did not err by not instructing the jury on the issue of self-defense.

8

Petitioner submits that he has a due process right for the self-defense instruction to be given
to the jury based upon the facts and the testimony that was developed at trial. Petitioner further
submits that while reasonable minds can disagree, as is seen in the fact that three separate state
courts had different opinions on the issue of whether a self-defense instruction should be given to
the jury, such disagreement among reasonable minds, supports Petitioner’s position that the
instruction should have been given to the jury for the jury to decide.

9

II. REASONS FOR GRANTING WRIT
In dissenting from the denial of certiorari in Jackson v. City and County of San Francisco.
135 S. Ct 2799, Justice Thomas and Justice Scalia began their dissent by stating “Self-defense is a
basic right”. This matter highlights an aspect of self-defense that this Court has not explored,
discussed, or commented on the due process implications of a trial court’s failure to give a jury
instruction regarding self-defense.

A. TENNESSEE’S SELF-DEFENSE FRAMEWORK
In Tennessee, self-defense is a general defense. A person asserting self-defense is entitled to
a jury instruction that he or she did not have a duty to retreat from an alleged attack only when the
person was not engaged in unlawful activity and was in a place that the person had a right to be. A
trial court is required to submit the self-defense jury instruction when admissible evidence fairly
raises the defense. See State v. Perry. 536 S.W.3d 388 (Tenn. 2017).

B. UNITED STATES SUPREME COURT COMMENTS ON SELF-DEFENSE - DUE
PROCESS CONSIDERATIONS
This Court has commented on the due process implications of a self-defense jury instruction
in various cases including, but not limited to, Middleson v. McNeil. 542 U.S. 946, 124 S. Ct. 2930,
158 L.Ed.2d 701 (2004), Engle v. Isacc. 456 U.S. 107, 102 S. Ct. 1558, 71 L.Ed.2d 783 (1982),
Martin v. Ohio. 480 U.S. 228, 107 S. Ct. 1098, 71 L.Ed.2d 783 (1987). This Court has never
commented on the due process requirements on the minimum threshold of evidence presented by a
defendant that compels a trial court to issue a self-defense jury instruction. This issue is paramount
in the instant matter.

10

C. AMBIGUITY REGARDING THE MINIMUM THRESHOLD OF PROOF, THAT
SATISFIES DUE PROCESS, THAT MERITS A SELF-DEFENSE JURY INSTRUCTION
Ambiguity and varying standards are utilized across the country as to the minimum threshold
for a trial court to provide a jury instruction on the general defense of self-defense. There is no
uniform standard, which satisfies due process, for a trial court to instruct a jury on the general
defense of self-defense. See the following cases as examples of varying degrees proof that justify a
jury instruction on self-defense:
A. State v. Broussard. 239 N.C.App. 382, 768 S.E.2d 367 (2015) (A defendant is entitled to a
jury instruction on self-defense when there is evidence from which the jury could infer he acted in
self-defense.
B. Smith v. State. 76 So.3d 170 (Miss.2009) (A defendant is entitled to a jury instruction on
self-defense when it is warranted by the evidence.)
C. Commonwealth v. Iacoviello. 90 Mass.App.Ct 231, 58 N.E.3d 1032 (Mass.App.Ct.2016)
(A defendant is entitled to a self-defense instruction if any view of evidence would support a
reasonable doubt as to whether the prerequisites of self-defense were present.)
D. State v. Low. 192 P.3d 867 (Utah 2008) (A self defense jury instruction is appropriate
when there is a reasonable basis to conclude the defense applies.)
E. Vila v. State. 74 So.3d 1110 (Fla.5th DCA 2011) (A defendant is entitled to a self defense
jury instruction when any evidence to support the defense has been offered.)
F.

State v. Head. 255 Wis.2d 194, 648 N.W.2d 413 (Wis. 2002) (A self defense jury

instruction is appropriate when the trial evidence places self-defense in issue.)
G. State v. Studd. 137 Wash.2d 533, 973 P.2d 1049 (Wash. 1999) (A jury may find self
defense on the basis of the defendant’s subjective reasonable belief of imminent harm from the
victim if sufficient evidence in the record supports the instruction.)

11

H. State v. Landrus. 930 N.W.2d 176 (N.D. 2019) (If evidence supports a self defense claim
the jury instruction should be given.)
There is no uniform approach to determine what level of proof is needed for a self-defense
jury instruction to be issued that satisfies due process.
The issue is what level of proof must be presented by a defendant, which satisfies due
process, in order for a trial court to give a jury an instruction on the defense of self-defense.
Petitioner submits that the standard to satisfy due process for a self-defense instruction to be given
to a jury is the minimum evidence when the defense has been offered.
In the instant matter testimony was developed at trial that the victim was the initial
aggressor, injuring Petitioner by arguably breaking his nose and at a minimum striking the Petitioner
with enough force to cause his nose to bleed profusely. The trial court was of the opinion that such
proof, that the victim was the initial aggressor and injured Petitioner, did not rise to the level for
giving a self-defense jury instruction. The Tennessee Court of Criminal Appeals disagreed with the
trial court and opined that sufficient evidence had been presented by the Petitioner for the trial court
to give the jury an instruction on the defense of self-defense. The Tennessee Supreme Court,
agreeing with the trial court, disagreed with the Tennessee Court of Criminal Appeals,. and
determined that the proof developed at trial did not rise to the level of warranting a jury instruction
on the issue of self-defense.

D. GUIDANCE IS NEEDED IN ORDER TO CLARIFY THE LEVEL OF PROOF
NEEDED TO WARRANT A JURY INSTRUCTION ON THE DEFENSE OF SELFDEFENSE IN ORDER TO SATISFY DUE PROCESS

12

This is case is another example of the adage that reasonable minds can disagree when there
is no guidance in place. After review of the threshold for a trial court to present a jury with a selfdefense instruction, there appears to be widely varying applications of law across the states.

III. CONCLUSION
For the foregoing reasons, this Court should grant the petition for a writ of certiorari.

Respectfully submitted,

-------

ANTONIO BENSON
TOMIS #
?
Petitioner Pro Se
Morgan County Corr’l Complex
P.O. Box 2000
Wartburg, TN 37887

CERTIFICATE OF SERVICE
I hereby certify that a true and exact copy of the foregoing petition for writ of certiorari has
been forwarded by first-class mail, postage prepaid, to Mr. Herbert Slaterj^Attoirney General and
Reporter, P.O. Box 20207, Nashville, TN 37203, on this the V ' day of
_____ , 2020.

/s/.
ANTONIO BENSON

13

